u

USCA11 Case: 20-12919 , Date Filed: 04/02/2021

Page: 1 of 3

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-12919-G
JIMMY COBB,
Petitioner-Appellant,
versus
UNITED STATES OF AMERICA,
Respondent-Appellee.
Appeal from the United States District Court
for the Middle District of Georgia
ORDER:
. Jimmy Cobb, who is serving a term of supervised release, seeks a certificate of
appealability (“COA”) in order to appeal the district court’s denial of his pro se 28 U.S.C. § 2255
motion.1 In order to obtain a COA, Mr. Cobb must make “a substantial showing of the denial of
a constitutional right.” 28 U.S.C. § 2253(c)(2). He satisfies this requirement by demonstrating
that “reasonable jurists would find the district court’s assessment of the constitutional claims
debatable or wrong,” or that the issues “deserve encouragement to proceed further.” Slack v.
McDaniel, 529 U.S. 473, 484 (2000) (quotation marks omitted). Mr. Cobb has failed to make the
requisite showing.
1 Mr. Cobb was released from prison on January 28, 2020. However, this Court retains
jurisdiction to review the denial of his § 2255 motion. See United States v. Brown, 117 F.3d 471,
475 (11th Cir. 1997) (stating that a defendant serving a term of supervised release is “in custody”
within the meaning of § 2255).

USCA11 Case: 20-12919

«e

Dat^Filed: 04/02/2021

Page: 2 of 3

In Claim 1, Mr. Cobb argued that counsel failed to fully explain the applicable law of the
charged offense before he pled guilty. According to Mr. Cobb, counsel erroneously informed him
that 18 U.S.C. § 2422(b) and O.C.G.A. § 16-6-5 were lesser-included offenses of 18 U.S.C.
§ 2425. Mr. Cobb further argued that he suffered prejudice because he unknowingly pled guilty
to violating all three statutes based on counsel’s erroneous interpretation of them. Reasonable
jurists would not debate the denial of this claim, as Mr. Cobb failed to show prejudice. It appears
that Mr. Cobb mistakenly believes that he pled guilty to all three statutes, but the record reveals
that he pled guilty to the sole charge in the superseding information—18 U.S.C. § 2425.
Moreover, both § 2422(b) and O.C.G.A. § 16-6-5 carried mandatory minimum sentences
of ten years’ imprisonment, while § 2425 did not. Because he pled guilty to § 2425, and not
§ 2422(b) or O.C.G.A. § 16-6-5, he was not subject to a ten-year minimum sentence. Additionally,
Mr. Cobb received the benefit of a downward variance to 24 months’ imprisonment from his
guideline range of 46 to 57 months’ imprisonment. Accordingly, even if counsel had informed
Mr. Cobb that § 2422(b) and O.C.G.A. § 16-6-5 were lesser-included offenses of § 2425 and that
he was pleading guilty to all three, Mr. Cobb failed to show prejudice because he received a lesser
sentence.
In Claim 2, Mr. Cobb argued that counsel wrongfully advised him to plead guilty to § 2425
because that statute did not criminalize his conduct, and he was actually innocent. Reasonable
jurists would not debate the denial of this claim because: (1) there was a sufficient factual basis
for his guilty plea; (2) the decision to go to trial on the original indictment would have been
unreasonable; (3) the undercover agent (“UC”) could have been charged with prostitution under

2

USCA11 Case: 20-12919

Date Filed: 04/02/2021

Page: 3 of 3

the version of O.C.G.A. § 16-6-9 in effect at that time;2 (4) Mr. Cobb could have been charged
with attempted enticement of a minor, in violation of § 2422(b); (5) the factual basis for his guilty
plea showed that he believed that the UC was a minor when he offered to have sex with her in
exchange for money; and (6) he initiated the transmission of the UC’s information.
In Claim 3, Mr. Cobb argued that the district court lacked jurisdiction to convict him
because §§ 2422(b) and 2425 require that a defendant use the Internet to violate these statutes, and
he did not use the Internet to contact the UC. Reasonable jurists would not debate the denial of
this claim, as both statutes require only that a defendant “us[e] the mail or any facility or means of
interstate or foreign commerce,” not exclusively the Internet. See 18 U.S.C. §§ 2422(b) and 2425.
Mr. Cobb admitted that he used his cell phone to both text message and call the UC using the
number listed on a Backpage ad.

We previously have held that cellular phones are

instrumentalities of interstate commerce. See United States v. Evans, 476 F.3d 1176, 1180-81
(11th Cir. 2007). Therefore, even if he did not use the Internet to communicate with the UC, the
district court had jurisdiction to convict and sentence him.
Accordingly, Mr. Cobb’s COA motion is DENIED.

/s/ Jill Pryor
UNITED STATES CIRCUIT JUDGE

2 For (3) and (4) here, the government had to prove that Mr. Cobb initiated the transmission
of the minor’s information with the intent to entice, encourage, offer, and solicit the minor to
engage in a sexual activity “for which any person could be charged with a criminal offense.” See
18 U.S.C. § 2425. To satisfy this element, the government alleged that the UC could have been
charged with prostitution under Georgia law, and Mr. Cobb could have been charged with
attempted online enticement of a minor, in violation of 18 U.S.C. § 2422(b).
3

</«

USCA11 Case: 20-12919

Date Filed: 05/24/2021

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-12919-G
JIMMY COBB,
Petitioner-Appellant,
versus
UNITED STATES OF AMERICA,
Respondent-Appel lee.
Appeals from the United States District Court
for the Middle District of Georgia
Before: JILL PRYOR and BRASHER, Circuit Judges.
BY THE COURT:
Jimmy Cobb has filed a motion for reconsideration of this Court’s April 2, 2021, order
denying a certificate of appealability in his appeal from the denial of his underlying 28 U.S.C.
§ 2255 motion to vacate. Upon review, Cobb’s motion for reconsideration is DENIED because he
has failed to offer new evidence or arguments of merit to warrant relief.

Case 4:17-cr-00051-CDL-MSH Document 106 Filed 07/15/20 Page 1 of 1

5*
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF GEORGIA
COLUMBUS DIVISION
JIMMY COBB,
Petitioner,

*
*

vs.

*

UNITED STATES OF AMERICA,

*

CASE NO. 4:17-CR-51 (CDL)

Respondent.

*

ORDER
After a de novo review of the record in this case, the Report
and Recommendation filed by the United States Magistrate Judge on
April 30, 2020 is hereby approved, adopted, and made the Order of
the Court, including the denial of a certificate of appealability.
The Court considered Petitioner's objections to the Report
and Recommendation and finds that they lack merit.
IT IS SO ORDERED, this 15th day of' July, 2020.
S/Clay D. Land
CLAY D. LAND
U.S. DISTRICT COURT JUDGE
MIDDLE DISTRICT OF GEORGIA

Case 4:17-cr-00051-CDL-MSH Document 104 Filed 04/30/20 Page lot 35

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF GEORGIA
COLUMBUS DIVISION
JIMMY COBB,
Petitioner,
CASE NO. 4:17-CR-51 -CDL-MSH
CASE NO. 4:18-CV-231-CDL-MSH
28 U.S.C. § 2255

v.

UNITED STATES OF AMERICA,
Respondent.
ORDER AND
RECOMMENDATION
Pending before the Court are Petitioner Jimmy Cobb’s motion to vacate under 28
U.S.C. § 2255 (ECF No. 59), motion to supplement (ECF No. 61), motions for summary
judgment (ECF Nos. 62, 99), motion for default judgment (ECF No. 64), motion to correct
registration error (ECF No. 75), motion for bail review (ECF No. 81), motions for return
of property (ECF Nos. 83, 86), motion for recusal (ECF No. 87), motion to amend (ECF
No. 88), motion for review of motions for return of property (ECF No. 93), motion as to
breach of plea agreement (ECF No. 96), motion for review of Order denying motion for
bond (ECF No. 97), emergency motion for home confinement (ECF No. 102), and motion
to modify conditions of release (ECF No. 103). For the hereinbelow reasons, it is
recommended that Petitioner’s motion to vacate (ECF No. 59), motions for summary
judgment (ECF Nos. 62, 99), motion for recusal (ECF No. 87), and motion to modify
conditions of release (ECF No. 103) be denied. Petitioner’s motion to supplement (ECF

Case 4:17-cr-00051-CDL-MSH Document 104 Filed 04/30/20 Page 2 of 35

No. 61) is granted, his motion to amend (ECF No. 88) is granted in part and denied in part,
and his remaining motions are denied or denied as moot.

BACKGROUND
On November 16, 2017, a grand jury indicted Petitioner for the attempted online
enticement of a minor in violation of O.C.G.A. § 16-6-5 and 18 U.S.C. § 2422(b).
Indictment 1-3, ECF No. 1. Petitioner was arrested as part of an undercover operation
conducted by the Georgia Bureau of Investigation (“GBI”) and the Georgia Internet Crimes
Against Children Task Force in Columbus, Georgia on November 11, 2017.

Plea

Agreement 8, ECF No. 34. On March 5,2018, Petitioner pled guilty to a superseding count
of the use of facilities in interstate and foreign commerce to transmit information about a
minor in violation of 18 U.S.C. § 2425. Superseding Information 1, ECF No. 33; Plea
Agreement 2; Plea Sheet 1, ECF No. 35; Plea Tr. 7:10-8:24, 18:24-19:20, 22:24-23:08,
ECF No. 57; Judgment 1, ECF No. 54.
Petitioner agreed that Respondent could prove at trial that on November 11, 2017,
a GBI undercover agent (“UC”) posted an ad on “Backpage.com” which read “Petite little
BAD girl! Ready to please,” and “Ready for a night you’ll never forget? Callme[.]” Plea
Agreement 8; Plea Tr. 20:05-20:16. The UC also posted a phone number and photos of
herself posing as a young girl in a hotel room. Plea Agreement 8; Plea Tr. 20:16-20:24.
The ad listed the UC’s age as “69,” and “[i]n the training and experience of law
enforcement, a posting age of ‘69’ is code for the fact that a child is being advertised for
prostitution.” Plea Agreement 8; Plea Tr. 20:24-21:02. Petitioner contacted the UC by
text message and stated he saw the UC’s ad on Backpage. Plea Agreement 8; Plea Tr.
2

Case 4:17-cr-00051-CDL-MSH Document 104 Filed 04/30/20 Page 3 of 35

21:03-21:06. The UC told Petitioner she was 14 years old, Petitioner “stated that he wished
to engage in sexual intercourse with the UC at the rate of $20.00 for five minutes of the
UC’s time,” and Petitioner stated he would bring a condom so the UC would not get
pregnant. Plea Agreement 8-9; Plea Tr. 21:06-21:19. Petitioner then called the UC, the
UC stated she was 14 years old, and Petitioner repeated that he wanted to have sex with
her. Plea Agreement 9; Plea Tr. 21:20-21:24. During the conversation, the GBI used
information from the text messages and phone call to identify the caller as Petitioner, who
lived in Columbus, Georgia. Plea Agreement 9; Plea Tr. 21:25-22:04. The UC provided
an address for the meeting, Petitioner traveled to that address, and Columbus Police
Department officers arrested him upon arrival. Plea Agreement 9; Plea Tr. 22:04-22:06.
A Federal Bureau of Investigation (“FBI”) agent interviewed Petitioner the same day. Plea
Agreement 9; Plea Tr. 22:07-22:09. During that interview, Petitioner stated it was “a bad
decision” to answer the Backpage ad, indicated he did not visit the website seeking to have
sex with an underage girl, but admitted he did not terminate the conversation with the UC.
Plea Agreement 9; Plea Tr. 22:09-22:13.
Petitioner was sentenced to 24 months imprisonment, 5 years supervised release,
and a $100 mandatory court assessment. Judgment 2-3, 6. Petitioner was also required to
provide a DNA sample and comply with the requirements of the Sex Offender Registration
and Notification Act under 34 U.S.C. § 10901, et seq. Id. at 3. Judgment was entered
against him on July 17, 2018. Id. at 1. Petitioner did not appeal. Mot. to Vacate 2, ECF
No. 59. On November 26, 2018, the Court received Petitioner’s motion to vacate his
sentence under 28 U.S.C. § 2255 (ECF No. 59), alleging ineffective assistance of counsel.
3

Case 4:17-cr-00051-CDL-MSH

Document 104 Filed 04/30/20 Page 4 of 35

Mot. to Vacate 4-6. On December 28, 2018, the Court received Petitioner’s motion to
supplement (ECF No. 61), alleging actual innocence and lack of jurisdiction. Mot. to
Suppl. 3-6. The Court received his first motion for summary judgment (ECF No. 62) on
January 3, 2019, and his motion for default judgment (ECF No. 64) on February 1, 2019.
The Court extended Respondent’s time to respond (ECF No. 63) to Petitioner’s motion to
vacate on January 30,2019, and Respondent responded (ECF No. 38) on February 4,2019.
The Court received Petitioner’s first reply (ECF No. 67) on February 25, 2019, and his
identical second reply (ECF No. 68) on March 7,2019. Petitioner has filed his twelve other
pending motions since that time. Petitioner’s motions are ripe for review.
DISCUSSION
I.

Petitioner’s Motion to Vacate
In his motion to vacate, Petitioner raises ineffective assistance of trial counsel as a

ground for relief. Mot. to Vacate 4-6. In his motion to supplement, he also raises two new
grounds: actual innocence and lack ofjurisdiction. Mot. to Suppl. 3-6. Petitioner’s motion
to supplement (ECF No. 61) is GRANTED. The Court has considered these new grounds
for relief as part of his motion to vacate. The Court recommends that his motion to vacate
be denied on all grounds.
- A.

, Ineffective Assistance of Trial Counsel

Petitioner raises two claims of ineffective assistance of trial counsel: (1) he did not
knowingly plead guilty because counsel failed to fully explain the applicable law, and (2)
counsel wrongfully advised Petitioner to plead guilty to violating 18 U.S.C. § 2425 because

4

Case 4:17-cr-00051-CDL-MSH Document 104 Filed 04/30/20 Page 5 of 35

that statute does not prohibit his conduct. Mot. to Vacate 4-5; Mem. in Supp. of Mot. to
Vacate 2, 4-14, ECF No. 59-1. Petitioner fails to show trial counsel was ineffective.
1.

Standard

To prevail on a claim of ineffective assistance of counsel, a petitioner must establish,
by a preponderance of the evidence, that his attorney’s performance was deficient and that
he was prejudiced by the inadequate performance. Strickland v. Washington, 466 U.S. 668,
687 (1984); Chandler v. United States, 218 F.3d 1305, 1313 (11th Cir. 2000). However,
“[a] court considering a claim of ineffective assistance must apply a ‘strong presumption’
that counsel’s representation was within the ‘wide range’ of reasonable professional
assistance.” Harrington v. Richter, 562 U.S. 86,104 (2011) (quoting Strickland, 466 U.S.
at 689 (1984)).
To establish deficient performance, a petitioner must prove their counsel’s
performance was unreasonable under prevailing professional norms and that the challenged
action was not sound strategy. There is a strong presumption that the challenged action
constituted sound trial strategy. Chateloin v. Singletary, 89 F.3d 749, 752 (11th Cir. 1996).
To show that counsel’s performance was unreasonable, a petitioner must establish that no
competent counsel would have taken the action in question. Van Poyck v. Florida Dep’t of
Corr., 290 F.3d 1318, 1322 (11th Cir. 2002) (per curiam).
To satisfy the prejudice prong, a petitioner must show there is a reasonable
probability that, but for counsel’s inadequate representation, “the result of the proceedings
would have been different.” Meeks v. Moore, 216 F.3d 951, 960 (11th Cir. 2000). If a
petitioner fails to establish that he was prejudiced by the alleged ineffective assistance, a
5

Case 4:17-cr-00051-CDL-MSH Document 104 Filed 04/30/20 Page 6 of 35

court need not address the performance prong of the Strickland test. Holladay v. Haley,
209 F.3d 1243, 1248 (11th Cir. 2000). A petitioner’s burden when bringing an ineffective
assistance claim “is not insurmountable” but “is aheavy one.” Chandler, 218 F.3d at 1314.
2.

Explanation ofApplicable Law

Petitioner claims “counsel failed to assure the Petitioner had a full and complete
understanding of the law and the facts of the case before advising the Petitioner to enter
into the plea.” Mot. to Vacate 4. He states that
counsel had him plead guilty to violating the laws of Georgia, violating 18
U.S.C. § 2422(b) and then agreeing that all were in violation of 18 U.S.C. §
2425. Petitioner will disclose that from a legal and statutory provision
aspect, [O.C.G.A. §] 16-6-5, as alleged in the original indictment, and §
2422(b) are greater offenses which carries [sic] higher penalties and different
elements, and all cannot be contained in § 2425 since it is a lesser charge.
The fact that there are elements in the other statutes that require proof
different from each other will not allow the statutes to be conflated in that
manner. Therefore, Petitioner entered into the plea agreement on the advice
of counsel unknowing, unintelligently and involuntarily.
Mem. in Supp. of Mot. to Vacate 5. He also states that
[c]ounsel knew or should have known that each of the aforementioned
statutes noted in the Superseding Notice required proof of a fact which the
other does not. This is especially so with the State statute and § 2422(b). In
the instant case Counsel advised the Petitioner to plead guilty to 18 U.S.C. §
2425 stating that the other two statutes were included in it. [O.C.G.A. §] 166-5 is punishable by 10 years in prison. § 2422(b) contains a penalty of a
minimum of 10 years to life imprisonment. Section 2425 penalty is 0-5 years
imprisonment for its violation. In this regard, conflated 16-6-5 and 2422(b)
to be included in 2425 is illogical. The greater cannot be included in the
lesser. Counsel knew or should have known that the presentation as such in
a plea agreement would cause the Petitioner to be convicted of the greater
statutes whether or not the elements required proof by different facts.
Id. at 14. Thus, Petitioner appears to contend that (1) counsel’s performance was deficient
because counsel erroneously informed him that 18 U.S.C. § 2422(b) and O.C.G.A. § 16-66

Case 4:17-cr-00051-CDL-MSH Document 104 Filed 04/30/20 Page 7 of 35

5 were lesser-included offenses of 18 U.S.C. § 2425, and (2) he suffered prejudice because
he unknowingly pled guilty to violating all three statutes based on counsel’s erroneous
interpretation of the statutes. See Reply 3-5, ECF No. 67.
Even assuming both that counsel erroneously informed Petitioner that 18 U.S.C. §
2422(b) and O.C.G.A. § 16-6-5 were lesser-included offenses of 18 U.S.C. § 2425 and that
this constitutes deficient performance, Petitioner fails to show resulting prejudice. A
defendant convicted under 18 U.S.C. § 2422(b) “shall be fined ... and imprisoned not less
than 10 years or for life.” In Georgia, a defendant convicted under O.C.G.A. § 16-6-5
“shall be punished by imprisonment for not less than ten nor more than 30 years.” Thus, a
conviction under either statute results in a statutory minimum sentence of ten years
imprisonment. Petitioner, however, was convicted of violating 18 U.S.C. § 2425 and
sentenced under that statute. See Judgment 1. A defendant convicted of violating 18
U.S.C. § 2425 “shall be fined under this title, imprisoned not more than 5 years, or both.”
Unlike 18 U.S.C. § 2422(b) and O.C.G.A. § 16-6-5, this statute has no statutory minimum
sentence. Because Petitioner pled guilty to violating 18 U.S.C. § 2425—instead of 18
U.S.C. § 2422(b) or O.C.G.A. § 16-6-5—he was not subject to a ten-year minimum
sentence.
Additionally, Petitioner’s sentencing guideline range was 46-57 months based on
an offense level of 23 and his criminal history category of I. Revised Final Presentence
Investigation Report 10, ECF No. 48; Sentencing Tr. 27:21-23, ECF No. 58. Petitioner,
however, received a downward variance from the guideline range and was sentenced to 24
months imprisonment, 5 years supervised release, and a $100 mandatory court
7

Case 4:17-cr-00051-CDL-MSH Document 104 Filed 04/30/20 Page 8 of 35

assessment—far less than the ten-year mandatory minimum for both 18 U.S.C. § 2422(b)
andO.C.G.A. § 16-6-5. Judgment 2-3, 6; Sentencing Tr. 28:14-29:09. Accordingly, even
if counsel informed Petitioner that 18 U.S.C. § 2422(b) and O.C.G.A. § 16-6-5 were lesserincluded offenses of 18 U.S.C. § 2425 and that he was pleading guilty to violating all three,
he fails to show prejudice because he received a lesser sentence. Because Petitioner fails
to show that but for counsel’s inadequate representation, “the result of the proceedings
would have been different,” he has not shown prejudice resulting from counsel’s allegedly
deficient performance. Meeks, 216 F.3d at 960. Therefore, counsel was not ineffective by
allegedly informing him that 18 U.S.C. § 2422(b) and O.C.G.A. § 16-6-5 were lesserincluded offenses of 18 U.S.C. § 2425.
Although Petitioner frames this claim as one of ineffective assistance of counsel, he
also argues his guilty plea was unknowing and, therefore, invalid as a result of counsel’s
alleged erroneous interpretation of 18 U.S.C. § 2425. Mem. in Supp. of Mot. to Vacate 58, 14-15. To the extent Petitioner raises an independent claim that his guilty plea was
unknowing and invalid, his claim should be denied. “A defendant’s guilty plea must be
knowing and voluntary in order to be constitutionally valid.” United States v. MunguiaRamirez, 267 F. App’x 894, 897 (11th Cir. 2008). “Rule 11 [of the Federal Rules of
Criminal Procedure] imposes upon a district court the obligation and responsibility to
conduct an inquiry into whether the defendant makes a knowing and voluntary guilty plea.”
United States v. Hernadez-Fraire, 208 F.3d 945, 949 (11th Cir. 2000). In order for a plea
to be knowing and voluntary: “(1) the guilty plea must be free from coercion; (2) the
defendant must understand the nature of the charges; and (3) the defendant must know and
8

Case 4:17-cr-00051-CDL-MSH Document 104 Filed 04/30/20 Page 9 of 35

understand the consequences of his guilty plea.” United States v. Mosley, 173 F.3d 1318,
1322 (11th Cir. 1999).
In evaluating a petitioner’s guilty plea, “the representations of the defendant, his
lawyer, and the prosecutor at [a plea] hearing, as well as any findings made by the judge
accepting the plea, constitute a formidable barrier in any subsequent collateral
proceedings.” Winthrop-Redin v. United States, 767 F.3d 1210, 1216 (11th Cir. 2014)
(alteration in original). Each plea colloquy is assessed “individually based on various
factors, such as the simplicity or complexity of the charges and the defendant’s
sophistication and intelligence.”

Mosley, 173 F.3d at 1322-23.

“The subsequent

presentation of conclusory allegations unsupported by specifics is subject to summary
dismissal, as are contentions that in the face of the record are wholly incredible.”
Blackledge v. Allison, 431 U.S. 63, 74 (1977).
Flere, Petitioner argues his plea was unknowing because he did not understand the
nature of the charge in the superseding information due to counsel’s alleged erroneous
interpretation of 18 U.S.C. § 2425. Mem. in Supp. of Mot. to Vacate 5-8, 14-15. A
defendant must receive “real notice of the true nature of the charged crime.” United States
v. Brown, 117 F.3d 471, 476 (11th Cir. 1997). In other words, a defendant should be
“informed of the elements of the charged offense.” Id.

However, “there is no one

mechanical way ... that a district court is required to inform the defendant of the nature of
[his] charges[.]” United States v. Puentes-Hurtado, 794 F.3d 1278, 1286 (11th Cir. 2015)
(alterations and omission in original). “Whether the court has adequately informed the
defendant of the offense’s nature turns on a variety of factors, including the complexity of
9

Case 4:17-cr-00051-CDL-MSH Document 104 Filed 04/30/20 Page 10 of 35

the offense and the defendant’s intelligence and education.” United States v. Telemaque,
244 F. 3d 1247, 1249 (11th Cir. 2001) (citations omitted).
During Petitioner’s plea colloquy, which occurred after counsel allegedly informed
Petitioner that 18 U.S.C. § 2422(b) and O.C.G.A. § 16-6-5 were lesser-included offenses
of 18 U.S.C. § 2425, the Court first asked Petitioner about his age and educational
background. Plea Tr. 4:16-4:22. Petitioner indicated that he was 35 years old at that time,
he had graduated from college with a degree in psychology, and he could read and write.
Id. The Court also asked Petitioner about his present mental state, and Petitioner indicated
that he had never been treated for mental illness, he was not under the influence of drugs
or alcohol, and he understood what he was doing. Id. at 4:23-5:12. The Court told
Petitioner that he needed to understand the charge against him in the superseding
information before he entered a plea. Id. at 7:10-13. In order to ensure Petitioner’s
understanding, the Court asked the prosecuting Assistant United States Attorney
(“AUSA”) to read both the charge and the elements thereof. Id. at 7:13-7:18. The AUSA
read the superseding information to Petitioner, which stated that Petitioner had been
charged with the use of facilities in interstate and foreign commerce to transmit information
about a minor in violation of 18 U.S.C. § 2425. Id. at 8:05-8:21; see also Superseding
Information 1. The Court asked Petitioner if he understood the charge, and he stated that
he did. Plea Tr. 8:22-8:24.
The Court then told Petitioner that he needed to “understand what the government
would have to prove at trial to convict [him] on this charge” and asked the AUSA to read
the essential elements of 18 U.S.C. § 2425. Id. at 8:25-9:04. The AUSA read the five
10

Case 4:17-cr-00051-CDL-MSH Document 104 Filed 04/30/20 Page 11 of 35

elements of the charge to Petitioner. Id. at 9:06-9:22. Afterwards, the Court asked
Petitioner if he understood these elements, and Petitioner stated that he did. Id. at 9:2310:01. The Court later asked Petitioner if he read the plea agreement, discussed it with his
attorney, and understood it, and Petitioner answered each question in the affirmative. Id.
at 13:04-24; see also Plea Agreement 2 (stating, inter alia, that Petitioner “is guilty and
will knowingly and voluntarily enter a plea of guilty to Count One of the Superseding
Information, which charges [Petitioner] with Use of Facilities in Interstate and Foreign
Commerce to Transmit Information about a Minor, in violation of [18 U.S.C. § 2425]”).
The Court noted that Petitioner had “indicated that [he understood] the charge,” and asked
him how he wished to plead to that charge. PleaTr. 18:24-19:02. Petitioner stated “guilty.”
Plea Tr. 19:03. The Court found that Petitioner understood the charges and had entered a
knowing and voluntary plea. Id. at 22:24-23:14.
Petitioner argues “[i]t is obvious that [during the plea colloquy] Petitioner did not
understand the statute but was counseled by counsels to say yes to what ever the court
asked.” Mem. in Supp. of Mot. to Vacate 8. Petitioner’s conclusory allegation that he did
not understand the charges in spite of his statements to the contrary in response to the
Court’s persistent questioning fails to show that his plea was unknowing. See Blackledge,
431 U.S. at 74. Based on Petitioner’s education level, his review of the charge in the
superseding information and plea agreement, the AUSA’s explanation of the charge and
its elements during the plea colloquy, and the Court’s questioning thereabout, it is clear
Petitioner understood the nature and elements of 18 U.S.C. § 2425 when he pled guilty.
See Superseding Information 1; Plea Agreement 2; Plea Tr. 7:10-10:01, 13:04-13:24,
11

Case 4:17-cr-00051-CDL-MSH Document 104 Filed 04/30/20 Page 12 of 35

18:24-19:03, 22:24-23:14. Because he knowingly and voluntarily pled guilty, he fails to
show that his plea was invalid.
3.

Advice to Plead Guilty and Actual Innocence

Petitioner argues counsel was ineffective “by advising the Petitioner to enter a Plea
Agreement to a Statute that his conduct does not prohibit.

Mem. in Supp. of Mot. to

Vacate 2. He contends he suffered prejudice because “he would have opted to go to trial
if Counsels would have presented him with the understanding of the prohibited conduct set
forth in § 2425.” Id. at 5. In a portion of his motion to amend (ECF No. 88), Petitioner
again argues counsel was ineffective in recommending that he plead guilty to the
superseding information. See Mot. to Amend 6-7, ECF No. 88. He restates the same
arguments in support. Id. For the hereinbelow reasons, the Court has granted in part
Petitioner’s motion to amend (ECF No. 88) to the extent he again raises this claim. His
claims are discussed in this section.
Rule 11(b)(3) of the Federal Rules of Criminal Procedure provides that the Court
must determine whether there is a factual basis for a plea before accepting that plea. “The
standard for evaluating challenges to the factual basis for a guilty plea is whether the trial
court was presented with evidence from which it could reasonably find that the defendant
was guilty.”

United States v. Frye, 402 F.3d 1123, 1128 (11th Cir. 2005) (internal

To the extent Petitioner claims he did not violate 18 U.S.C. § 2425, his claim is really one of
actual innocence. In his motion to supplement, Petitioner raises the same arguments and states
that his claim is one for actual innocence. Mot. to Supplement 3-4, ECF No. 61. Because
Petitioner raises identical arguments in the ineffective assistance of counsel ground of his original
motion to vacate and in the actual innocence ground of his motion to supplement, the Court
analyzes both claims in this subsection, and recommends that both be denied.
12

Case 4:17-cr-00051-CDL-MSH Document 104 Filed 04/30/20 Page 13 of 35

quotations and citations omitted). “The representations of the defendant, his lawyer, and
the prosecutor at [a plea] hearing, as well as any findings made by the judge accepting the
plea, constitute a formidable barrier in any subsequent collateral proceedings.” WinthropRedin, 767 F.3d at 1216 (11th Cir. 2014). “[W]hen a defendant makes statements under
oath at a plea colloquy, he bears a heavy burden to show his statements were false.” United
States v. Rogers, 848 F.2d 166, 168 (11th Cir. 1988) (citation omitted).
Here, the trial court was presented with a sufficient factual basis to support
Petitioner’s guilty plea, and Petitioner fails to meet his burden to show that this finding was
incorrect. The superseding information provided that Petitioner
knowingly used facilities in interstate and foreign commerce, to wit: a
cellular telephone and the Internet, to initiate the transmission of the name,
address, telephone number, and electronic mail address of another individual,
knowing that said individual had not attained the age of sixteen (16) years,
with the intent to entice, encourage, offer, and solicit that individual to
engage in a sexual activity for which any person could be charged with a
criminal offense, to wit: Prostitution, in violation of the laws of the State of
Georgia, and the Attempted Online Enticement of a Minor, in violation of
Title 18, United States Code, Section 2422(b); all in violation of Title 18,
United States Code, Section 2425.
Superseding Information 1. In his plea agreement, Petitioner unequivocally agreed that
“[Petitioner] is guilty and will knowingly and voluntarily enter a plea of guilty to Count
One of the Superseding Information, which charges Defendant with Use of Facilities in
Interstate and Foreign Commerce to Transmit Information about a Minor, in violation of
Title 18, United States Code, Section 2425.” Plea Agreement 2. Petitioner agreed that he
read the entire plea agreement, understood it, initialed each page, and signed at the end.
PleaTr. 13:08-13:24.

13

Case 4:17-cr-00051-CDL-MSH Document 104 Filed 04/30/20 Page 14 of 35

During his plea colloquy, after the AUSA read the superseding information and the
elements of 18 U.S.C. § 2425, Petitioner stated under oath that he understood the charge
and elements thereof. Id. at 7:10-10:01. Petitioner then pled guilty to violating 18 U.S.C.
§ 2425, stated he was pleading guilty because he was, in fact, guilty, and agreed that
committed the acts described in the superseding information. Id. at 18:24-19:20. He also
agreed the Government could prove that he initiated contact with the UC by texting the
UC’s phone number after seeing the ad on Backpage, the UC advised him that she was 14,
Petitioner called the UC on the same phone number, she again advised him she was 14
during the call, Petitioner stated he wanted to have sex with the UC in exchange for money,
Petitioner requested that the UC send him her address so they could meet, the UC texted
Petitioner an address, and Petitioner traveled to that address with the intention of having
sex with the UC in exchange for money. Plea Agreement 8-9; Plea Tr. 19:21-22:16; see
also Pet’r’s Sent’g Mem. Ex. 2, at 3-4, ECF No. 50-2.
The Court found that these facts established a factual basis for each element of 18
U.S.C. § 2425 and accepted Petitioner’s guilty plea. Plea Tr. 22:24-23:08. Thus, Petitioner
agreed he specifically violated 18 U.S.C. § 2425, he stipulated to facts as part of his plea
agreement, and the Court found that there was a sufficient factual basis for Petitioner’s
guilty plea. Plea Agreement 2, 8-9; Plea Tr. 18:24-23:08. He fails to show that there was
insufficient factual basis for his guilty plea to the superseding information. Consequently,
Petitioner has not established that counsels’ performance was deficient in advising him to
plead guilty to the superseding information or that he is actually innocent of violating 18
U.S.C. § 2425.
14

Case 4:17-cr-00051-CDL-MSH Document 104 Filed 04/30/20 Page 15 of 35

In spite of his plea to specifically violating 18 U.S.C. § 2425, Petitioner still
contends he is innocent of that charge, and counsel should not have advised him to plead
guilty. First, he argues counsel should not have advised him to plead guilty under the
superseding information because he did not solicit an individual to engage in a sexual
activity for which any person could be charged with prostitution, in violation of the laws
of the State of Georgia.2 Mem. in Supp. of Mot. to Vacate 9-11. At the time Petitioner
pled guilty to the superseding information on March 5, 2018, O.C.G.A. § 16-6-9 provided
that “[a] person commits the offense of prostitution when he or she performs or offers or
consents to perform a sexual act, including but not limited to sexual intercourse or sodomy,
for money or other items of value.”3 Petitioner agreed the Government could show that
Petitioner “stated that he wished to engage in sexual intercourse with the UC at the rate of
$20.00 for five minutes of the UC’s time.” Plea Agreement 8-9; Plea Tr. 21:06-21:19.
Because Petitioner asked the UC to engage in sexual intercourse with him in exchange for
money, the UC could have been charged with prostitution under O.C.G.A. § 16-6-9 had

2 Petitioner also appears to contend the Government had to show he violated O.C.G.A. § 16-6-5
because he was initially charged with violating that that statute in original indictment. Mem. in
Supp. of Mot. to Vacate 9-10; see also Indictment 1. However, in the superseding information—
to which Petitioner pled guilty—the Government alleged he satisfied one element of 18 U.S.C. §
2425 because he “solicit[ed] [an] individual to engage in a sexual activity for which any person
could be charged with a criminal offense, to wit: Prostitution, in violation of the laws of the State
of Georgia^]” Superseding Information 1. Thus, the superseding information does not allege
Petitioner violated O.C.G.A. § 16-6-5, and the Government would not have been required to prove
a violation of that statute at trial.
3 O.C.G.A. § 16-6-9 was amended in 2019 and now provides “[a] person, 18 years ofage or older,
commits the offense of prostitution when he or she performs or offers or consents to perform a
sexual act, including, but not limited to, sexual intercourse or sodomy, for money or other items
of value.” 2019 Ga. Laws 30, § 1-6 (effective date July 1, 2019) (emphasis added).
15

Case 4:17-cr-00051-CDL-MSH Document 104 Filed 04/30/20 Page 16 of 35

she agreed and performed the act. Therefore, Petitioner fails to show that the Government
could not have proven this element of the superseding information.
Second, Petitioner argues counsel should not have advised him to plead guilty to the
superseding information because he did not solicit an individual to engage in a sexual
activity for which any person could be charged with attempted online enticement of a minor
in violation of 18 U.S.C. § 2422(b). Mem. in Supp. of Mot. to Vacate 11-13. 18 U.S.C. §
2422(b) provides that
whoever, using the mail or any facility or means of interstate or foreign
commerce, or within the special maritime and territorial jurisdiction of the
United States knowingly persuades, induces, entices, or coerces any
individual who has not attained the age of 18 years, to engage in prostitution
or any sexual activity for which any person can be charged with a criminal
offense, or attempts to do so, shall be fined under this title and imprisoned
not less than 10 years or for life.
Petitioner contends that he did not use the Internet to communicate with the UC. Id. at 1112. He agreed that he used a cell phone to text and call the UC, but he states this “cannot
in and of itself warrant a conviction.” Id. at 11; see also Plea Agreement 8; Plea Tr. 21:0321:19. However, the Eleventh Circuit has held that “[tjelephones and cellular telephones
are instrumentalities of interstate commerce,” and their use, alone, can satisfy this element
of 18 U.S.C. § 2422(b). United States v. Evans, 416 F.3d 1176, 1180-81 (11th Cir. 2007)
(citations omitted). Thus, had Petitioner could have been charged with violating 18 U.S.C.
§ 2422(b). Furthermore, Petitioner contends the UC could not have violated both 18 U.S.C.
§ 2422(b) and O.C.G.A. § 16-6-9 because they criminalize different conduct. Mem. in
Supp. of Mot. to Vacate 12-13. Even if the UC could not be charged with violating 18
U.S.C. § 2422(b), Petitioner could be charged with violating this statute because he agreed
16

Case 4:17-cr-00051-CDL-MSH Document 104 Filed 04/30/20 Page 17 of 35

the Government could prove that he used his cell phone to attempt to induce, entice, or
coerce a person he believed to be under the age of 18 to engage in prostitution by offering
to have sex with her in exchange for money. See Plea Agreement 8-9; Plea Tr. 21:0321:24.
Petitioner also contends he did not intend to contact a minor. Mem. in Supp. of
Mot. to Vacate 13. In support, he asserts (1) that an ad which lists an age of “69” refers to
a sex act and is not an indication that the ad offers sex with minors, and (2) that Backpage’s
disclaimer disallows minors from accessing or posting ads with sexual content.

Id.

However, Petitioner agreed that the Government could prove that (1) the UC told Petitioner
that she was fourteen by text message after Petitioner contacted her, and (2) the UC again
informed Petitioner she was fourteen when he called her, (3) Petitioner offered to have sex
with the UC after she told him she was fourteen. Plea Agreement 8-9; Plea Tr. 21:0621:24. “[A] defendant’s mere belief that a minor was involved is sufficient to sustain an
attempt conviction under 18 U.S.C. § 2422(b), even if the defendant’s offense conduct did
not involve an actual minor.” United States v. Slaughter, 708 F.3d 1208, 1215 (11th Cir.
2013) (internal quotations omitted) (upholding conviction where defendant contacted a
minor online who “was actually [an] FBI Special Agent.. . pretending to be an underage
girl as part of an undercover task force to prevent and prosecute sex crimes against
children”). Even if Petitioner did not intend to contact a minor on Backpage, he believed
the UC was a minor when he offered to have sex with her in exchange for money. Because
Petitioner enticed, encouraged, offered, and solicited the UC to engage in a sexual activity
for which he could have been charged under 18 U.S.C.§ 2422(b), he fails to show that the
17

Case 4:17-cr-00051-CDL-MSH Document 104 Filed 04/30/20 Page 18 of 35

Government could not have proven that he violated this element of the superseding
information.
Third, Petitioner argues he did not violate 18 U.S.C. § 2425 because he did not
initiate the transmission of the name, address, telephone number, and electronic mail
address of another. Mem. in Supp. of Mot. to Vacate 14-15. He argues that the UC created
the ad and that he merely contacted the UC without transmitting information. Id. at 14.
Petitioner admits, however, that the Government could prove that he initially messaged the
UC using her telephone number. Plea Agreement 8; Plea Tr. 21:03-21:06. He also initiated
the transmission of the UC’s address by requesting a location to meet her. Pet’r’s Sent’g
Mem. Ex. 2, at 3-4.. Petitioner fails to show that the Government could not have proven
that he violated this element of 18 U.S.C. § 2425. Because he does not show that the
Government could not prove an element of the superseding information, he is not actually
innocent and counsel’s performance was not deficient in urging him to plead guilty to the
superseding information.
Finally, even if counsels’ performance was deficient in advising him to plead guilty,
Petitioner fails to show prejudice. Petitioner’s original indictment charged him with
violating 18 U.S.C. § 2422(b). Indictment 1. His trial on this charge was set to begin on
March 5, 2018. See Notice of Resetting Hearing, Feb. 15, 2018. Petitioner entered into
his plea agreement and pled guilty to the superseding information on March 5,2018, before
jury selection began. Minute Entry, Mar. 5,2018, ECF No. 31; see also Plea Tr. 3:04-3:11.
Thus, had Petitioner rejected the plea agreement and the superseding information, he would
have proceeded to trial upon the charge in the original indictment. 18 U.S.C. § 2422(b)
18

Case 4:17-cr-00051-CDL-MSH Document 104 Filed 04/30/20 Page 19 of 35

provides that
whoever, using the mail or any facility or means of interstate or foreign
commerce, or within the special maritime and territorial jurisdiction of the
United States knowingly persuades, induces, entices, or coerces any
individual who has not attained the age of 18 years, to engage in prostitution
or any sexual activity for which any person can be charged with a criminal
offense, or attempts to do so, shall be fined under this title and imprisoned
not less than 10 years or for life.
A jury likely would have convicted Petitioner of violating 18 U.S.C. § 2422(b).
Petitioner used a facility or means of interstate commerce to communicate with the UC by
texting and calling her with his cellular telephone. Plea Agreement 8-9; Plea Tr. 21:0321:24; see Evans, 476 F.3d at 1180-81 (holding that “[tjelephones and cellular telephones
are instrumentalities of interstate commerce,” and their use, alone, can satisfy this element
of 18 U.S.C. § 2422(b) (citations omitted)). He attempted to persuade, induce, entice, or
coerce the UC to engage in prostitution by asking to have sex with her at a rate of $20.00
for five minutes of her time. Plea Agreement 8-9; Plea Tr. 21:06-21:19. The UC stated
she was 14 years old before and after he offered to have sex with her. Plea Agreement 89; Plea Tr. 21:06-21:24. Even though the UC was over 18 years old, “a defendant’s mere
belief that a minor was involved is sufficient to sustain an attempt conviction under 18
U.S.C. § 2422(b), even if the defendant’s offense conduct did not involve an actual minor.”
Slaughter, 708 F.3d at 1215 (internal quotations omitted) (upholding conviction where
defendant contacted a minor online who “was actually [an] FBI Special Agent . . .
pretending to be an underage girl as part of an undercover task force to prevent and
prosecute sex crimes against children”). Petitioner fails to show that a jury would not have
convicted him for violating 18 U.S.C. § 2422(b) had he proceeded to trial on the original
19

Case 4:17-cr-00051-CDL-MSH Document 104 Filed 04/30/20 Page 20 of 35

indictment.
If a jury convicted Petitioner of violating 18 U.S.C. § 2422(b), he would have faced
a ten-year minimum mandatory sentence. A defendant convicted of violating 18 U.S.C. §
2425 “shall be fined under this title, imprisoned not more than 5 years, or both.” Thus,
because Petitioner pled guilty to violating 18 U.S.C. § 2425—instead of being convicted
by a jury of violatingl8 U.S.C. § 2422(b)—he was not subject to a ten-year minimum
sentence. Because Petitioner fails to show a reasonable probability that, but for counsel’s
inadequate representation, “the result of the proceedings would have been different,” he
fails to show prejudice resulting from counsels’ allegedly deficient performance in advising
him to plead guilty to the superseding information. Meeks, 216 F.3d at 960. The Court
RECOMMENDS that Petitioner’s motion to vacate be DENIED on his ineffective
assistance of counsel ground. The Court RECOMMENDS that Petitioner’s supplement
to his motion to vacate be DENIED on his actual innocence ground.
B.

Lack of Jurisdiction

In his supplement to his motion to vacate, Petitioner also argues that the Court
lacked subject matter jurisdiction. Mot. to Supplement 5-6. Specifically, he argues that 18
U.S.C. §§ 2422(b) and 2425 both require that a defendant use the internet to violate those
statutes, and he did not use the internet to contact the UC. Id. at 5-6. He contends that
only the UC used the internet to post the ad on Backpage, but he did not communicate with
the UC on Backpage. Id. Both statutes, however, require only that a defendant “us[e] the
mail or any facility or means of interstate or foreign commerce”—not exclusively the
internet. 18 U.S.C. §§ 2422(b), 2425. Petitioner admits he used his cell phone to both text
20

Case 4:17-cr-00051-CDL-MSH Document 104 Filed 04/30/20 Page 21 of 35

message and call the UC using the number included in the Backpage ad. Plea Agreement
8-9; Plea Tr. 21:03-21:24. The Eleventh Circuit has held that “[telephones and cellular
telephones are instrumentalities of interstate commerce,” and their use, alone, can satisfy
this requirement. Evans, 476 F.3d at 1180-81 (citations omitted). Therefore, even if
Petitioner did not use the internet to communicate with the UC, the Court retained
jurisdiction to sentence him for violating 18 U.S.C. §§ 2422(b) and 2425. The Court
recommends that Petitioners supplement to his motion to vacate be denied on this ground.
II.

Motions for Summary Judgment
The Court received Petitioner’s first motion for summary judgment (ECF No. 62)

on January 3, 2019. Summary judgment may be granted only “if the movant shows that
there is no genuine dispute as to any material fact and the movant is entitled to judgment
as a matter of law.” Fed. R. Civ. P. 56(a). In determining whether a genuine dispute of
material fact exists to defeat a motion for summary judgment, the evidence is viewed in
the light most favorable to the party opposing summary judgment, drawing all justifiable
inferences in the opposing party’s favor. Anderson v. Liberty Lobby, Inc., All U.S. 242,
255 (1986). A fact is material if it is relevant or necessary to the outcome of the suit. Id.
at 248. A factual dispute is genuine if the evidence would allow a reasonable jury to return
a verdict for the nonmoving party. Id.
Petitioner filed his motion before Respondents filed a response to his motion to
vacate (ECF No. 59), and pursuant to the Court’s November 26,2018, Order, Respondents
had until January 25, 2019, to file their response. Order 1, ECF No. 60. In his motion for
summary judgment, Petitioner contends “[fjirst, summary judgment is warranted because
21

Case 4:17-cr-00051-CDL-MSH Document 104 Filed 04/30/20 Page 22 of 35

the [Petitioner] did not violate [18 U.S.C.] § 2425 and second, [Petitioner] did not violate
[18 U.S.C.] § 2422b.” 1st Mot. for Summ. J. 3, ECF No. 62. In support, he restates the
factual allegations and legal arguments he raised in support of his motion to vacate (ECF
No. 59) and motion to supplement (ECF No. 61). See id. at 3-5. For the hereinabove
reasons, however, the Court recommends that Petitioner’s motion to vacate and motion to
supplement be denied on these same grounds. Thus, Petitioner fails to show that he is
entitled to judgment as a matter of law on these claims, and the Court RECOMMMENDS
that Petitioner’s first motion for summary judgment (ECF No. 61) be DENED.
The Court received Petitioner’s second motion for summary judgment (ECF No.
99) on November 8, 2019. Therein, he states that Respondents have “not made any
showing sufficient to establish the existence of every element essential to defeat
[Petitioner’s] request for relief to vacate, set aside, and correct conviction and sentence.”
2d Mot. for Summ. J. 2, ECF No. 99. In support, Petitioner again restates several of his
arguments he raised in support of his motion to vacate and motion to supplement. See id.
at 2-3. Because the Court recommends that Petitioner’s motion to vacate and motion to
supplement be denied on these same grounds, Petitioner fails to show that he is entitled to
judgment as a matter of law on these claims, and the Court also RECOMMMENDS that
Petitioner’s second motion for summary judgment (ECF No. 99) be DENED.
III.

Motion for Recusal
The Court received Petitioner’s motion for recusal (ECF No. 87) on August 26,

2019. Therein, he seeks to recuse the undersigned pursuant to 28 U.S.C. § 455. Mot. for
Recusal 1-3, ECF No. 87. Under 28 U.S.C. § 455, a magistrate judge “shall disqualify
22

Case 4:17-cr-00051-CDL-MSH Document 104 Filed 04/30/20 Page 23 of 35

himself in any proceeding in which his impartiality might reasonably be questioned.” 28
U.S.C. § 455(a). The statute also enumerates certain other circumstances requiring a judge
to disqualify himself. Id. at § 455(b)(l)-(5). Petitioner does not specify which statutory
circumstances apply to this case. It appears, however, that Petitioner’s primary complaint
is that the undersigned is biased against him. Thus, he may rely on either subsection (a) or
subsection (b)(1).
The standard under subsection (a) is objective and requires the Court to ask
“whether an objective, disinterested lay observer fully informed of the facts underlying the
grounds on which recusal was sought would entertain significant doubt about the judge’s
impartiality.” United States v. Patti, 337 F.3d 1317, 1321 (11th Cir. 2003) (internal
quotation marks omitted). In the Eleventh Circuit, “it is well settled that the allegation of
bias must show that the bias is personal as distinguished from judicial in nature.” Bolin v.
Story, 225 F.3d 1234,1239 (11th Cir. 2000) (internal quotation marks and citation omitted)
(per curiam). As a result, “a judge’s rulings in the same or a related case are not a sufficient
basis for recusal,” except in rare circumstances where the previous proceedings
demonstrate pervasive bias and prejudice. Id.; see also Liteky v. United States, 510 U.S.
540, 555 (1994) (“[Jjudicial rulings alone almost never constitute [a] valid basis for a bias
or partiality recusal motion.”); McWhorter v. City ofBirmingham, 906 F.2d 674, 678 (11th
Cir. 1990) (“[The bias] must derive from something other than that which the judge learned
by participating in the case.”).
In support of his motion, Petitioner appears to argue that the undersigned should be
recused because he has denied Petitioner’s motions and has not granted Petitioner relief
23

Case 4:17-cr-00051-CDL-MSH Document 104 Filed 04/30/20 Page 24 of 35

even though Petitioner is innocent of the charges for which he was convicted. Mot. for
Recusal 2-3. Petitioner has not pointed to any specific facts showing that any sort of
extrajudicial bias existed, nor has Petitioner demonstrated that the undersigned’s rulings
exhibit “such a high degree of.. . antagonism as to make fair judgment impossible” or a
bias toward Petitioner “so extreme as to display clear inability to render fair judgment.”
See Liteky, 510 U.S. at 551, 555. Although Petitioner claims the undersigned is biased
because he denied Petitioner’s motions, it is clear that “[Repeated rulings against a litigant,
no matter how erroneous and how vigorously and consistently expressed, are not a basis
for disqualification of a judge on the grounds of bias and prejudice.” See Maret v. United
States, 332 F. Supp. 324, 326 (E.D. Mo. 1971). Additionally, Petitioner contends the
undersigned has failed to rule in his favor, even though “this case is simple and there is no
factual basis to support the conviction.” Mot. for Recusal 3. Even assuming this is true,
under 28 U.S.C. § 455(a), the bias required for a judge to recuse himself “must derive from
something other than that which the judge learned by participating in the case.”
McWhorter, 906 F.2d at 678. Petitioner fails to show bias under 28 U.S.C. § 455(a).
28 U.S.C. § 455(b)(1) requires disqualification where the judge “has a personal bias
or prejudice concerning a party, or personal knowledge of disputed evidentiary facts
concerning the proceeding[.]” “Recusal under this subsection is mandatory, because ‘the
potential for conflicts of interest are readily apparent.’” Patti, 337 F.3d at 1321 (quoting
Murray v. Scott, 253 F.3d 1308, 1312 (11th Cir. 2001)). Again, Petitioner fails to allege
any personal bias on the part of the undersigned. Any knowledge gained through the course
of a judicial proceeding is not a “disputed evidentiary fact” that requires recusal. United
24

Case 4:17-cr-00051-CDL-MSH Document 104 Filed 04/30/20 Page 25 of 35

States v. Bailey, 175 F.3d 966, 969 (11th Cir. 1999). Instead, knowledge of disputed
evidentiary facts must be gained through an extrajudicial source to warrant recusal. No
such knowledge exists here. Because Petitioner has failed to allege facts requiring the
undersigned to recuse himself, the Court RECOMMENDS that his motion for recusal be
DENIED.
IV.

Motion to Modify Conditions of Release
The Court received Petitioner’s motion to modify conditions of release (ECF No.

103) on April 1, 2020. Therein, he argues “his constitutional rights are being violated due
to mandatory involuntary civil commitment for sex offender treatment.” Mot. to Modify
Conditions of Release 3, ECF No. 103. In entering judgment against Petitioner, the Court
issued the following special condition of supervised release:
You shall participate in a mental health program to include any available
sexual offender treatment as recommended by a psychiatrist or psychologist.
Such treatment may include mental health counseling, residential treatment,
outpatient treatment, and/or the prescription of psychotropic medications by
a medical doctor. The U.S. Probation Office shall administratively supervise
your participation in the program by approving the program and monitoring
your participation in the program. You shall contribute to the costs of such
treatment not to exceed an amount determined reasonable by the court
approved ‘U.S. Probation Office’s Sliding Scale for Service,’ and shall
cooperate in securing any applicable third-party payment, such as insurance
or Medicaid.
Judgment 5. Petitioner appears to interpret this language as a direction to the U.S.
Probation Office to recommend that Petitioner participate in a mental health program. See
Mot. to Modify Conditions of Release 2 (quoting this language and emphasizing
“recommended”). He states that the U.S. Probation Office has erroneously “ordered that
it is mandatory to take part in this treatment.” Id. at 3 (emphasis added). To the extent
25

Case 4:17-cr-00051-CDL-MSH Document 104 Filed 04/30/20 Page 26 of 35

Petitioner argues this condition of supervised release is merely a recommendation, the
Court RECOMMENDS that his motion be DENIED. This condition is mandatory.
Judgment 5 (“You shall participate in a mental health program....” (emphasis added)).
To the extent Petitioner seeks to modify this condition of release, his motion is
properly construed as a motion pursuant to 18 U.S.C. § 3582.4 A district court may
“modify, reduce, or enlarge the conditions of supervised release, at any time prior to the
expiration of the term of supervised release.” 18 U.S.C. § 3583(e)(2). In deciding whether
to modify the conditions of supervised release, a court must consider the factors set forth
in 18 U.S.C. § 3553(a). Id.

As it pertains to the modification of the conditions of

supervised release, the pertinent factors are:
(1) the nature and circumstances of the offense; (2) the defendant’s history
and characteristics; (3) the need for deterrence; (4) the need to protect the
public; (5) the need to provide the defendant with educational and vocational
training, medical care, or correctional treatment; (6) the applicable guideline
range; (7) any pertinent policy statements set forth by the Sentencing
Commission; (8) the need to avoid unwarranted sentencing disparities; and
(9) the need to provide restitution.
United States v. Aldrich, 785 F. App’x 688, 690 (11th Cir. 2019). “It is not necessary for
a special condition to be supported by each § 3553(a) factor; rather, each factor is an
independent consideration to be weighed.” Id. (quoting United States v. Tome, 611 F.3d

4 The Court declines to characterize Petitioner’s motion as a new motion pursuant to 28 U.S.C. §
2255. Petitioner specifically attacks a particular condition of his release; not the validity of his
conviction. See United States v. Mosley, 796 F. App’x. 1014, 1015-16 (11th Cir. 2020) (per
curiam) (holding that the district court properly declined to characterize petitioner’s motion
attacking a condition of his supervised release as a motion pursuant to 28 U.S.C. § 2255).
Additionally, if the Court construed Petitioner’s motion as a motion pursuant to 28 U.S.C. § 2255,
it would constitute either an unauthorized second successive petition or an untimely amendment
to his pending motion to vacate.
26

Case 4:17-cr-00051-CDL-MSH Document 104 Filed 04/30/20 Page 27 of 35

1371,1376(llth Cir. 2010)). The decision to grant or deny amotion for modification rests
in the discretion of the Court. Id. Based on the Court’s review of the record, and after
taking into account the factors set forth in 18 U.S.C. § 3553(a), the Court
RECOMMENDS that Petitioner’s motion be DENIED.5
V.

Petitioner’s Remaining Motions
A.

Motion for Default Judgment

On February 1, 2019, the Court received Petitioner’s motion for default judgment
(ECF No. 64), which the Clerk docketed as a motion for ruling on his first motion for
summary judgment (ECF No. 62).

Therein, Petitioner “moves for Demand/Default

Judgment on all claims.” Mot. for Default J. 1, ECF No. 64. Petitioner, however, failed to
move for the Clerk to enter default under Rule 55(a) of the Federal Rules of Civil Procedure
before filing his motion for default judgment pursuant to Rule 55(b) of the Federal Rules
of Civil Procedure. Additionally, Petitioner filed his motion on January 22, 2019.6 Id.
Pursuant to the Court’s November 26, 2018, Order, Respondents had until January 25,
2019, to file their response. Order 1, ECF No. 60. Consequently, his motion is premature

5 Petitioner also contends the challenged conditions of supervised release are unconstitutional.
Mot. to Modify Conditions of Release 3-4. The Court, however, lacks jurisdiction to consider this
argument. A motion under 18 U.S.C. § 3583(e)(2) “may not be used to challenge the legality or
constitutionality of a supervised release condition.” United States v. McClamma, 676 F. App’x
944, 948 (11th Cir. 2017).
6 Although the Court did not receive Plaintiffs motion until February 1, 2019, Plaintiff signed the
motion on January 22, 2019. “Under the prison mailbox rule, a pro se prisoner’s court filing is
deemed filed on the date it is delivered to prison authorities for mailing.” United States v. Glover,
686 F.3d 1203,1205 (11th Cir. 2012) (internal quotation marks omitted). “Unless there is evidence
to the contrary, like prison logs or other records, we assume that a prisoner’s motion was delivered
to prison authorities on the day he signed it.” Id.
27

Case 4:17-cr-00051-CDL-MSH Document 104 Filed 04/30/20 Page 28 of 35

for these two reasons. His motion is DENIED.
B.

Motion to Correct Registration Error

On July 8, 2019, the Court received Petitioner’s motion to correct registration error
(ECF No. 75), which the Clerk docketed as a motion to alter judgment. Therein, Petitioner
states that the U.S. Probation Office wrongfully instructed him to register as a sex offender
prior to his incarceration, and he timely complied with the instruction. Mot. to Correct
Registration Error 1, ECF No. 75. He contends this instruction was erroneous and that he
should only have to register as a sex offender upon release from incarceration. Id. He
requests that he be removed from the sex offender registry “until post conviction
proceedings are finalized.” Id. Because the Court recommends that his motion to vacate
be denied, his post-conviction proceedings are now finalized, and his motion to correct
registration error is now moot. In the alternative, Petitioner has been released from
custody, so his motion is also moot for this reason. See Mot. to Modify Conditions of
Release 1, ECF No. 103 (“Movant served time and was released on the January 28,2020.”).
For these two reasons, Petitioner’s motion is DENIED AS MOOT.
C.

Motion for Bail Review

The Court received Petitioner’s motion for bail review (ECF No. 81) on July 26,
2019. Therein, he requests bail pending review of his motion to vacate (ECF No. 59). Mot.
for Bail Review 1-2, ECF No. 81. The Court received Petitioner’s motion for review of
Order denying motion for bond (ECF No. 97) on October 7, 2019. Therein, Petitioner
again seeks bail pending habeas review. A habeas petitioner seeking bail during the
pendency of a habeas application must show (1) a likelihood of success on the merits of a
28

Case 4:17-cr-00051-CDL-MSH Document 104 Filed 04/30/20 Page 29 of 35

substantial constitutional claim, and (2) extraordinary and exceptional circumstances
rendering bail necessary to preserve the effectiveness of petitioner’s habeas claims. Gomez
v. United States, 899 F.2d 1124, 1125 (11th Cir. 1990) (citation omitted).
Petitioner states he is likely to succeed on the merits of his claims, and his case
presents extraordinary and exceptional circumstances because he is innocent. Mot. for Bail
Review 2; Mot. for Review of Order Denying Mot. for Bond 2-3, ECF No. 97. For the
hereinabove reasons, however, the Court has recommended that Petitioner’s motion to
vacate be denied on all grounds. For those same reasons, Petitioner cannot show that he is
likely to succeed on the merits of his claims. Therefore, he fails to satisfy his burden on
his motion for bail. Additionally, Petitioner has been released from custody. See Mot. to
Modify Conditions of Release 1, ECF No. 103 (“Movant served time and was released on
the January 28, 2020.”). Thus, in the alternative, his motions are now moot. Petitioner’s
motions are DENIED.
D.

Motions for Return of Property

The Court received Petitioner’s first motion for return of property (ECF No. 83) on
August 5, 2019. Therein, Petitioner states that during his arrest, the arresting officers
confiscated $250.00 in cash and a cell phone from Petitioner. 1st Mot. for Return of
Property 1, ECF No. 83. Because his superseding information lacked a forfeiture notice,
Petitioner claims he is entitled to his cash and cell phone. Id. at 1-2. Respondents filed a
response (ECF No. 84) to Petitioner’s motion on August 15, 2019. Respondents state that
the Columbus, Georgia Police Department—whose officers arrested Petitioner and
confiscated his property incident to arrest—has preserved these items as evidence in
29

Case 4:17-cr-00051-CDL-MSH Document 104 Filed 04/30/20 Page 30 of 35

Petitioner’s case. Resp. to 1st Mot. for Return of Property 2, ECF No. 84. Thus, Petitioner
is not entitled to these items at this time, and his motion is DENIED.
The Court received Petitioner’s second motion for return of property (ECF No. 86)
on August 26,2019. He raises the same arguments he raised in his first motion and requests
that the district judge review the denial of his first motion. 2d Mot. for Return of Property
1, ECF No. 86. It appears Petitioner’s second motion is predicated on the belief that the
undersigned denied his first motion. See id. (“Petitioner presents this motion upon the
court and ask that the denial for the Return of Property Motion by Honorable Magistrate
Judge Stephen Hyles ([ECF No.] 85) be reviewed by the District Judge.”). However, the
Court had not denied Petitioner’s motion at that time. Because Petitioner raises no new
ground in support of his second motion, that motion is DENIED AS MOOT. The Court
received Petitioner’s third motion for return of property (ECF No. 93) on September 23,
2019. This motion appears to be a duplicate of his second motion for return of property
(ECF NO. 86). This motion is DENIED AS MOOT for the same reasons as his second
motion for return of property.
E.

Motion to Amend

The Court received Petitioner’s motion to amend (ECF No. 88) his motion to vacate
on August 29,2019. Therein, Petitioner seeks to amend his motion to vacate in two ways:
(1) he seeks to raise a new claim of ineffective assistance of trial counsel arising from
counsels’ alleged failure to withdraw his guilty plea and to proceed to trial on the original
indictment, and (2) he seeks to again raise arguments concerning his pending ineffective
assistance of trial counsel claim arising from counsels’ advice that he plead guilty to the
30

Case 4:17-cr-00051-CDL-MSH Document 104 Filed 04/30/20 Page 31 of 35

superseding information. Mot. to Amend 1-7, ECF No. 88.
The Anti-Terrorism and Effective Death Penalty Act (hereinafter “AEDPA”) was
enacted primarily to put an end to the unacceptable delay in the review of prisoners’ habeas
petitions. “The purpose of the AEDPA is not obscure. It was to eliminate the interminable
delays in the execution of state and federal criminal sentences, and the ... overloading of
our federal criminal justice system, produced by various aspects of this Court’s habeas
corpus jurisdiction.” Hohn v. United States, 524 U.S. 236, 264-65 (1998) (Scalia J.,
dissenting). The AEDPA, which became effective on April 24, 1996, therefore instituted
a time bar as follows:
A 1-year period of limitation shall apply to a motion under this section. The
limitation period shall run from the latest of—
(1) the date on which the judgment of conviction becomes final;
(2) the date on which the impediment to making a motion created by
governmental action in violation of the Constitution or laws of the
United States is removed, if movant was prevented from making a
motion by such governmental action;
(3) the date on which the right asserted was initially recognized by the
Supreme Court, if that right has been newly recognized by the
Supreme Court and made retroactively applicable to cases on
collateral review; or
(4) the date on which the facts supporting the claim or claims
presented could have been discovered through the exercise of due
diligence.
28 U.S.C. § 2255(f).
A proposed amended claim to a motion pursuant to 28 U.S.C. § 2255 is subject to
this same one-year limitations period. Davenport v. United States, 217 F.3d 1341, 1343
31

Case 4:17-cr-00051-CDL-MSH Document 104 Filed 04/30/20 Page 32 of 35

(11th Cir. 2000). Thus, a newly proposed amendment is barred unless it is timely filed or
unless it relates back to a timely filed claim. Id. at 1344. Here, judgment was entered
against Petitioner on July 19, 2018. See Judgment, ECF No. 54. Petitioner’s conviction
was final on August 3,2018—when his time for filing a notice of appeal expired, fourteen
days after the judgment was entered. Fed. R. App. P. 4(b)(1)(A). His one-year period of
limitation pursuant 28 U.S.C. § 2255(f)(1) began to run on August 3, 2018, and expired on
August 5,2019. Therefore, when Petitioner filed his amendment on August 23,2019 under
the prison mailbox rule, he was over two weeks past the one-year limitations period. See
Mot. to Amend 7 (showing Petitioner signed his motion on August 23, 2019). This Court
is consequently without jurisdiction to review the merits of Petitioner’s newly-raised
claims unless they relate back to a timely filed claim. To the extent Petitioner seeks to
restate arguments raised in his motion to vacate concerning his ineffective assistance claim
arising from counsels’ advice that he plead guilty to the superseding information, his
motion is GRANTED IN PART because it relates back to a timely filed claim in his
original motion to vacate. Those arguments have been considered above. However, to the
extent he seeks to raise a new claim of ineffective assistance of counsel concerning
counsels’ failure to withdraw his guilty plea and proceed to trial on the original indictment,
his motion to amend is DENIED IN PART because this is a new claim which does not
relate back to a timely filed claim.
F.

Motion as to Breach of Plea Agreement

The Court received Petitioner’s motion as to breach of plea agreement (ECF No.
96) on October 1, 2019. Therein, Petitioner argues that his plea agreement constitutes an
32

Case 4:17-cr-00051-CDL-MSH Document 104 Filed 04/30/20 Page 33 of 35

enforceable contract, which the Government breached by wrongfully convicting him. Mot.
as to Breach of Plea Agreement 1-5, ECF No. 96. He raises the same arguments he
previously raised in support of his motion to vacate (ECF No. 59) and his first motion for
return of property (ECF No. 83). Id. 1-4. For the hereinabove reasons, the Court
recommends that both motions be denied on all grounds. Because Petitioner’s motion as
to breach of plea agreement relies on the same grounds, it is also DENIED.
G.

Emergency Motion for Home Confinement

The Court Received Petitioner’s emergency motion for home confinement (ECF
No. 102) on December 31, 2019. Therein, he requests that the Court order that he be
released to home confinement. Emergency Mot. for Home Confinement 1-2, ECF No.
102. Petitioner has been released from custody. See Mot. to Modify Conditions of Release
1, ECF No. 103 (“Movant served time and was released on the January 28, 2020.”).
Therefore, Petitioner’s motion is DENIED AS MOOT.
CERTIFICATE OF APPEALABILITY
Rule 11(a) of Rules Governing Section 2255 Cases in the United States District
Courts provides that “[t]he district court must issue or deny a certificate of appealability
when it enters a final order adverse to the applicant.” A certificate of appealability may
issue only if the applicant makes “a substantial showing of the denial of a constitutional
right.” 28 U.S.C. § 2253(c)(2). If a court denies a collateral motion on the merits, this
standard requires a petitioner to demonstrate that “reasonable jurists would find the district
court’s assessment of the constitutional claims debatable or wrong.” Slack v. McDaniel,
529 U.S. 473,484 (2000). When a court denies a collateral motion on procedural grounds,
33

Case 4:17-cr-00051-CDL-MSH

Document 104 Filed 04/30/20 Page 34 of 35

this standard requires a petitioner to demonstrate that “jurists of reason would find it
debatable whether the petition states a valid claim of the denial of a constitutional right,
and that jurists of reason would find it debatable whether the district court was correct in
its procedural ruling.” Id. at 478 (2000). Petitioner cannot meet either of these standards
and, therefore, a certificate of appealability in this case should be denied.
CONCLUSION
For the foregoing reasons, it is recommended that Petitioner’s motion to vacate his
sentence under 28 U.S.C. § 2255 (ECF No. 59), motions for summary judgment (ECF Nos.
62,99), motion for recusal (ECF No. 87), and motion to modify conditions of release (ECF
No. 103) be denied. Petitioner’s motion to supplement (ECF No. 61) is granted, and his
motion to amend (ECF No. 88) is granted in part and denied in part. His motion for default
judgment (ECF No. 64), motion to correct registration error (ECF No. 75), motion for bail
review (ECF No. 81), motions for return of property (ECF Nos. 83, 86), motion for review
of motions for return of property (ECF No. 93), motion as to breach of plea agreement
(ECF No. 96), motion for review of Order denying motion for bond (ECF No. 97), and
emergency motion for home confinement (ECF No. 102) are denied or denied as moot.
Additionally, a certificate of appealability should be denied. Pursuant to 28 U.S.C. §
636(b)(1), the parties may serve and file written objections to this Recommendation, or
seek an extension of time to file objections, within fourteen (14) days after being served
with a copy hereof. The District Judge shall make a de novo determination of those
portions of the Recommendation to which objection is made. All other portions of the
Recommendation may be reviewed for clear error.
34

Case 4:17-cr-00051-CDL-MSH Document 104 Filed 04/30/20 Page 35 of 35

The parties are hereby notified that, pursuant to Eleventh Circuit Rule 3 -1, “[a] party
failing to object to a magistrate judge’s findings or recommendations contained in a report
and recommendation in accordance with the provisions of 28 U.S.C. § 636(b)(1) waives
the right to challenge on appeal the district court’s order based on unobjected-to factual
and legal conclusions if the party was informed of the time period for objecting and the
consequences on appeal for failing to object. In the absence of a proper objection, however,
the court may review on appeal for plain error if necessary in the interests of justice.”
SO RECOMMENDED, this 30th day of April, 2020.
Is/ STEPHEN HYLES
UNITED STATES MAGISTRATE JUDGE

35

